     Management Advisory Report



    Single Audit of the State of
Tennessee for the Fiscal Year Ended
           June 30, 2011




        A-77-13-00010 | May 2013
Single Audit of the State of Tennessee for the Fiscal Year
Ended June 30, 2011
A-77-13-00010
May 2013                                                                 Office of Audit Report Summary

Objective                                Finding

To report internal control weaknesses,   DHS did not follow State information system security policies,
noncompliance issues, and                which may result in an increased risk of fraudulent activity or loss
unallowable costs identified in the      of data.
single audit to Social Security
Administration (SSA) for resolution      Recommendation
action.
                                         SSA should verify that DHS has implemented procedures to ensure
Background                               effective system access controls.

The Tennessee Comptroller of the
Treasury conducted the single audit of
the State of Tennessee. SSA is
responsible for resolving single audit
findings related to its Disability
Insurance program. The Department
of Human Services (DHS) is the
Tennessee Disability Determination
Section’s (DDS) parent agency.
MEMORANDUM
Date:      May 7, 2013                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Tennessee for the Fiscal Year Ended June 30, 2011 (A-77-13-00010)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Tennessee for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Tennessee Comptroller of the Treasury conducted the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the audit met
           Federal requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Tennessee Comptroller of the Treasury
           and the reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Tennessee Disability Determination Section (DDS) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is reimbursed for
           100 percent of allowable costs. The Department of Human Services (DHS) is the Tennessee
           DDS’ parent agency.




           1
            State of Tennessee Single Audit Report for the Year Ended June 30, 2011,
           http://www.comptroller.tn.gov/repository/SA/2011_TN_Single_Audit.pdf (last viewed April 23, 2013).
Page 2 - Gary S. Hatcher

The single audit reported DHS did not follow State information system security policies, which
may result in an increased risk of fraudulent activity or loss of data. 2 The corrective action plan
indicated that steps to address the issues identified were already underway.

We recommend that SSA verify that DHS has implemented procedures to ensure effective
system access controls.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding 11-DHS-05.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
